                               UNITED STATES
                       NUCLEAR REGULATORY COMMISSION
                                WASHINGTON, D.C. 20555-0001



OFFICE OF THE

OFFICE OF THE
INSPECTOR GENERAL


                                                 December 17, 2008


MEMORANDUM TO:            R. William Borchardt
                          Executive Director for Operations

                          J. E. Dyer
                          Chief Financial Officer



FROM:                     Stephen D. Dingbaum /RA/
                          Assistant Inspector General for Audits


SUBJECT:                  MEMORANDUM REPORT: REVIEW OF NRC’S
                          IMPLEMENTATION OF THE FEDERAL MANAGERS’
                          FINANCIAL INTEGRITY ACT FOR FISCAL YEAR 2008
                          (OIG-09-A-04)


This report reflects the Office of the Inspector General’s assessment of the Nuclear
Regulatory Commission’s (NRC) FY 2008 compliance with the Federal Managers’
Financial Integrity Act (FMFIA) of 1982. We found that NRC complied with the FMFIA
requirements.

BACKGROUND

The FMFIA, enacted on September 8, 1982, requires ongoing evaluations and reports
of the adequacy of internal controls and accounting systems of each executive agency.
Further, the FMFIA requires that, each year, the head of each executive agency report
to the President and the Congress on their agency’s compliance with the FMFIA
requirements.

Effective for FY 2006, Office of Management and Budget Circular No. A-123,
Management’s Responsibility for Internal Control, revised December 2004, requires
agencies to include the annual FMFIA report as part of the Performance and
Accountability Report under the heading “Management Assurances.” Additionally, this
circular requires management to provide a separate assurance statement relating to the
effectiveness of internal control over financial reporting.
                    Review of NRC’s Implementation of the Federal Managers’ Financial Integrity Act for Fiscal Year 2008



RESULTS

In the FY 2008 Performance and Accountability Report, the Chairman provided
reasonable assurance that internal control over operations, compliance with laws and
regulations, and internal control over financial reporting were operating effectively and
no material weaknesses were found. The Inspector General concurs with the
assurances made and found that NRC complied with the FMFIA requirements.

AGENCY COMMENTS

A draft report was provided to the Executive Director for Operations and the Chief
Financial Officer for comment. These offices had no comments on the report.

SCOPE/CONTRIBUTORS

We evaluated the internal controls related to NRC’s implementation of the FMFIA for
FY 2008, and conducted our work in December 2008, in accordance with generally
accepted Government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. This audit was conducted by Steven Zane, Team
Leader; Kathleen Stetson, Auditor Manager; and Rebecca Underhill, Senior Auditor.

If you have any questions, please contact me at 415-5915 or Steven Zane, Team
Leader, at 415-5912.

cc:    Chairman Klein
       Commissioner Jaczko
       Commissioner Lyons
       Commissioner Svinicki
       V. Ordaz, OEDO
       J. Arildsen, OEDO
       P. Shea, OEDO
